                             United States Department of Agriculture
                                     Office of Inspector General
                                       Washington, D.C. 20250


DATE:           November 16, 2011

AUDIT
NUMBER:         92-501-0001-12 (1)

TO:             Pearlie Reed
                Assistant Secretary
                Departmental Management

ATTN:           Phyllis Holmes
                Audit Liaison

FROM:           Gil H. Harden /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        [IT Contract]

As part of the Office of Inspector General’s (OIG) fiscal year (FY) 2011 Federal Information
Security Management Act (FISMA) reporting requirement, OIG assessed whether the U.S.
Department of Agriculture (USDA) established and maintained a program to oversee systems
operated on its behalf by contractors or other entities [REDACTED TEXT].1 As part of our
FISMA audit, which is performed in accordance with generally accepted government auditing
standards, we reviewed the [IT] contract issued to [REDACTED TEXT], to determine whether
contractual agreements were properly documented, authorized, and maintained [REDACTED
TEXT].2 We found that the contract was signed by a USDA contracting officer who did not have
the warrant authority to bind the Department to the subject contract. We are issuing this fast
report to quickly disclose this issue to USDA management for resolution. This issue, along with
any others issues identified, will be incorporated into a final report.

On [REDACTED TEXT], a contracting officer in USDA’s Procurement and Operations Division
(POD), Information Technology (IT) Contracting Branch, signed a contract for [REDACTED
TEXT] with [REDACTED TEXT], totaling [REDACTED TEXT] million for a period of
[REDACTED TEXT] years, despite the fact that the contracting officer’s warrant authority was
restricted to contracts with a value up to $5 million. We also noted that the contracting officer
signed two other contract actions in FY 2010 that exceeded [REDACTED TEXT] warrant


1
 [REDACTED TEXT]
2
  CyberScope – FISMA Reporting question [REDACTED TEXT].
Pearlie Reed                                                                                                        2

authority.3 When asked why [REDACTED TEXT] had signed the contracts that had exceeded
[REDACTED TEXT] warrant level, [REDACTED TEXT] explained that [REDACTED TEXT]
did not do this intentionally, [REDACTED TEXT] had a heavy workload, and [REDACTED
TEXT] was aware that the IT Contracting Branch was short handed.

The actions of this contracting officer violated the Federal Acquisition Regulation (FAR),4 which
clearly states that contracting officers may bind the Government only to the extent of the
authority delegated to them. In addition, according to the FAR and Agriculture’s Acquisition
Regulation (AGAR),5 the action taken by the USDA official without the appropriate warrant
authority constitutes an “unauthorized commitment” and requires that the contract be ratified.6
Documentation of the ratification should be in the contract file for audit purposes.

We discussed this issue with Departmental officials, who agreed that the individual who signed
the [IT] contract did not have the proper warrant authority.7 The Deputy Director of the Office
of Property and Procurement Management (OPPM) concurred that signing a contract that
exceeded a warrant level is considered an unauthorized commitment. In response, Departmental
Management reduced the contracting officer’s warrant authority from $5 million to $500,000 and
stated that this was the appropriate disciplinary action for exceeding [REDACTED TEXT]
warrant. Additionally, signatory responsibilities for the [IT] contract have been assigned to
another contracting officer who has the appropriate warrant authority.

Upon further review, we learned that the contracting officer who was reprimanded in this case
has a history of violating FAR requirements and exceeding [REDACTED TEXT] authority. For
over [REDACTED TEXT] years this individual has been assigned to work on Departmental IT
contracts. At times, from calendar year [REDACTED TEXT] through [REDACTED TEXT],
[REDACTED TEXT] acted outside of [REDACTED TEXT] roles and responsibilities;
[REDACTED TEXT] disclosed sensitive contractual information to vendors; authorized a
contractor to work even though the funding was not available,8 and signed contract actions in
excess of [REDACTED TEXT] warrant authority. Management was aware that this contracting
officer had previously misused [REDACTED TEXT] authority (in one instance, [REDACTED
TEXT] warrant was reduced from $25 million to $200,000), but [REDACTED TEXT] still
maintained a warrant and continued to sign IT contract actions.




3
  This contracting officer signed a contract for [REDACTED TEXT] on [REDACTED TEXT] and a modification to the [IT]
   contract on [REDACTED TEXT].
4
  FAR 1.602-1.
5
  FAR 1.602-3(a) and AGAR 401.602-3(a).
6
  When a contract is entered into that exceeds the contracting officer’s authority, it is referred to as an “unauthorized
   commitment.” To correct this situation, an authorized official must “ratify” the “unauthorized commitment,” which requires
   that the individual, who entered into the commitment, explain why he/she exceeded his/her authority.
7
  In September 2011, OIG discussed this issue with the Deputy Director of OPPM and in October 2011 with the POD Director.
8
  In FY 2005, five contract actions were ratified because in [REDACTED TEXT] 2004, the contracting officer authorized a
   vendor to work prior to ensuring funds were available.
Pearlie Reed                                                                                                          3

Based on this history of repeated violations, it does not appear that management has taken
effective measures to prevent the recurrence of inappropriate actions. OIG also noted that POD
lacks a process to adequately monitor and administer effective oversight of the IT Contracting
Branch. The newly appointed Director of POD concurred that it is necessary to develop policies
and procedures to better oversee POD’s procurement process.

OIG noted that the internal control —the weekly reports—was not formal in nature9 or
functioning as designed and did not identify the contracting officer’s violation of FAR and
AGAR. When we reviewed the weekly reports we found that they were incomplete and did not
indicate what contract actions [REDACTED TEXT] signed. The [IT] contract was signed on
[REDACTED TEXT]. The [REDACTED TEXT] status report did not state the amount of the
award, including the base and option years, and did not note that [REDACTED TEXT] had signed
the contract. Moreover, the prior months’ reports did not state that the contracting officer was
working with the Office of the Chief Information Officer on the solicitation and award of the
[IT] contract.10 We concluded that POD needs to formalize the process for completing the
weekly status reports so that it can serve as a valuable control for the contracting Branch Chief’s
oversight of contracting officers.

In conclusion, Departmental Management should document why the contracting officer
exceeded [REDACTED TEXT] warrant and take the necessary action to ensure that IT contracts
are administered in accordance with Federal and Departmental regulations. Departmental
Management should review other contract actions signed by this individual, as well as other
contracting officers, to determine if they have exceeded their warrant authority, implement
effective procedures to prevent this from recurring, and take any necessary disciplinary action. If
unauthorized commitments are identified, the contract actions need to be ratified. In addition,
USDA needs to notify vendors when the designated USDA contracting officer changes by
issuing a contract modification.

We are currently following up on other contract issues. We will discuss these with Departmental
Management officials and, if appropriate, issue additional reports.

We recommend that Departmental Management:

         1. Ratify the [IT] contract and have the contracting officer document why the warrant
            level was exceeded, as required by the FAR and AGAR.

         2. Take the necessary actions to ensure that all contracts are administered in accordance
            with Federal and Departmental regulations.

         3. Determine if other contracting officers exceeded their warrants and take any

9
  The IT Contracting Branch Chief required his staff, per an email dated June 2009, to complete a template that shows the status
   of the solicitations and contracts that the contracting officers are working on to help monitor his staff.
10
   We reviewed the weekly status reports for January through April, 2010.
Pearlie Reed                                                                              4

            appropriate management action.

       4. Implement the necessary internal controls to ensure warrant levels are not exceeded.

       5. Formalize the weekly status reporting tool and implement the necessary controls to
          help ensure the reports provide effective oversight of contracting officers’
          procurement activities.

       6. Ratify all contracts that were obligated by contracting officers with insufficient
          warrant authority.

       7.   Issue a modification for all contracts where the contracting officer has changed.

Please provide a written response within 5 days outlining your proposed corrective actions and
timeframes for completing them. If you have any questions or need additional information,
please contact me at (202) 720-6945 or Rod DeSmet, Deputy Assistant Inspector General for
Audit, at (202) 720-1918.
Agency’s Response




                    USDA’S



            MANAGEMENT SERVICES



         RESPONSE TO AUDIT REPORT
                                              Information removed from this report was redacted IAW FOIA exemption 7




                                                            November 22, 2011

                      TO:               Gil H. Harden
United States                           Assistant Inspector General for Audit
Department of
Agriculture
                      THROUGH: Pearlie Reed//original signed//
Office of the
Assistant Secretary            Assistant Secretary
for Administration             Departmental Management
Departmental
Management
Management          FROM:               Richard D. Swenson//original signed//
Services
                                        Director
Procurement                             Management Services
Operations Division

Reporters Building    SUBJECT: [IT Contract], Audit Number 92-501-0001-12 (1)
300 7th Street, SW
Suite 353
Washington, DC
20024
                      The Procurement Operations Division (POD) stipulates agreement with the facts,
                      representations, and recommendations of the subject audit and does so without dispute.
                      POD also agrees with the substance of all regulatory citations found within the body of
                      the report. This office provided full assistance and cooperation with the representatives
                      of the Office of the Inspector General for Audit and found this cooperation and
                      assistance to be mutual and reciprocal during the discovery and interview portions of
                      this audit.

                      In response to the Office of Inspector General (OIG) Fiscal Year 2011, Federal
                      Information Security Management Act (FISMA) audit letter dated November 16, 2011,
                      on proper documentation of the contract agreements of the [IT] services; the
                      Procurement Operations Division in Management Services of USDA’s Departmental
                      Management has reviewed OIG’s recommendations and has attached the Corrective
                      Action Plans for remediation.

                      The warrant authority for the referenced Contracting Officer will be terminated. It will
                      be re-evaluated at a later date. The Contracting Officer will be required to take refresher
                      training as a condition of employment. During this period the contracting officer’s title
                      will be re-designated to contract specialist and all of [REDACTED TEXT] work will be
                      submitted to the Branch Chief or Director for review prior to contracts or modifications
                      being issued.

                      If you have any questions regarding the information, you may contact Shawn E. Kerkes,
                      Director of Procurement Operations Division at Shawn.Kerkes@dm.usda.gov or on
                      (202) 690-0142.

                      Attachment
                          AN EQUAL OPPORTUNITY EMPLOYER
                                                                          Information removed from this report was redacted IAW FOIA exemption 7

                                                                                                                                     Attachment 1

                                                         Audit No. 92-501-0001-12(1)
                                                                [IT Contract]

Rec. Recommendations                                                          Corrective Action Plan                                Completion

No.                                                                                                                                 Timeframe

 1     Ratify the [IT] contract and have the        a. The new contracting officer will complete the Request of Unauthorized        Jan. 30, 2012
       contracting officer document why the             Commitment and submit to the Head of the Contracting Activity for
       warrant level was exceeded, as required by       approval.
       the FAR and AGAR.
                                                    b. A contracting officer with the appropriate warrant authority will issue
                                                        modifications to formalize the ratification.

                                                    c. As part of the ratification process, the contracting officer will document
                                                        why the warrant level was exceeded.
 2     Take the necessary actions to ensure that    a. Institute a random sampling of FPDS comparing obligation amount to           June 30, 2012
       all contracts are administered in               contractor warrant.
       accordance with Federal and Departmental
       regulations.                                 b. Revise the Contract File Index Checklist to insure all appropriate pre-
                                                       award and post award acquisition requirements are fully documented.
 3    Determine if other contracting officers       a. Develop a report that identifies each active contract; the assigned           July 31, 2012
      exceeded their warrants and take any              contract officer and the warrant levels of each contracting officer
      appropriate management action.
                                                    b. Validate the report to identify instances where warrant levels have been
                                                       exceeded

                                                    c.    Determine the appropriate management actions as necessary.


       AN EQUAL OPPORTUNITY EMPLOYER
                                                                        Information removed from this report was redacted IAW FOIA exemption 7

4   Implement the necessary internal controls     a. Generate a Procurement Data Mark report generated from IAS monthly.             May 31, 2012
    to ensure warrant levels are not exceeded.
                                                  b. The Procurement Operations Division has revised the warrant letter,
                                                     explicitly prohibiting the Contract Officer signing contracts, including
                                                     modifications, options, estimated orders against an indefinite delivery
                                                     contract, or any other agreement, that will result in the total amount of the
                                                     contract exceeding the delegated warrant authority.

                                                  c. Develop an AOP for Status Report Procedures.

                                                  d. OPPM will issue an AOP clarification requiring total contract value
                                                     reporting that includes total contract value for base year plus all option
                                                     year contractual values.

                                                  e. OPPM will develop a Procurement Management Oversight Plan.
    Formalize the weekly status reporting tool    Develop an AOP for Status Report Procedures                                        May 31, 2012
    and implement the necessary controls to
    ensure the reports provide effective
5
    oversight of contracting officer’s
    procurement activities.

6   Ratify all contracts that were obligated by   a. Complete review of Contract Files                                               July 31, 2012
    contracting officers with insufficient
    warrant authority.                            b. Require the Contract Officer to write up the request for ratification.

                                                  c. Require Branch chief to perform the review of the request.

                                                  d. The Head of the Contracting Activity will approve/disapprove all
                                                      ratifications.




    AN EQUAL OPPORTUNITY EMPLOYER
                                                                     Information removed from this report was redacted IAW FOIA exemption 7

7   Issue a modification for all contracts       a. Run a report in FPDS that identifying active contracts and their assigned    Mar 30, 2012
    where the contracting officer has changed        Contracting Officers.

                                                b. Require Branch Chiefs to review the report identifying departed or
                                                   reassigned Contracting Officers.

                                                c. Branch Chief will ensure all active contracts are assigned to a contracting
                                                   officer with the appropriate warrant authority.

                                                d. The new contracting officer will issue the modification.




    AN EQUAL OPPORTUNITY EMPLOYER
